                       Agreed Upon Procedures for
                      Fiscal Years 2003 through 2005

                               November 2003

                     Reference Number: 2004-1C-015




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          November 12, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE


       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Agreed Upon Procedures for Fiscal Years 2003 through 2005
                              (Audit #20041C0208)

       In response to your request, the Defense Contract Audit Agency (DCAA) applied agreed
       upon procedures to the contractor’s cost plus fixed fee proposal for the contractor’s
       Fiscal years 2003 through 2005. The purpose of the engagement was to apply agreed
       upon procedures to the contractor’s proposed direct labor rates and indirect rates. The
       report pertains only to the performance of the agreed upon procedures. The DCAA did
       not perform an examination and, therefore, does not express an opinion.
       The DCAA indicated that the contractor’s proposed overhead and general and
       administrative indirect rates are significantly higher than the verified indirect rates. The
       DCAA stated the contracting officer may wish to consider indirect rate ceilings to protect
       the Government from potential cost over runs in the option years.
       The DCAA also verified the proposed direct labor rates and identified some differences.
       The differences are based on a comparison between proposed direct labor rates and
       contractor payroll information as of September 17, 2003, and rates proposed by the
       Economic Research Institute’s Salary Assessor. The DCAA noted that direct labor
       rates could be higher should different employees within the proposed labor categories
       perform on the contract.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director at (202) 927-7077.

       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
